                         United States Attorney Richard S. Hartunian

                                   Northern District of New York

FOR IMMEDIATE RELEASE                                   CONTACT: Tina Sciocchetti or
February 3, 2012                                                    Robert P. Storch
www.usdoj.gov/usao/nyn                                  PHONE: (518) 431-0247
                                                        FAX: (518) 431-0249

                       TROY, N.Y. WOMAN INDICTED FOR BANK FRAUD
                           AND FORGERY OF TREASURY CHECK

       Albany, New York —United States Attorney Richard S. Hartunian announced today that

a federal grand jury in the Northern District of New York, in Albany, returned a two-count

indictment charging KENITA HOKE, 44, of Troy, New York, with bank fraud (Count 1) and

forging an endorsement on a United States Treasury check (Count 2).1 If found guilty of Count

1, HOKE faces a statutory maximum sentence of thirty years imprisonment. Count 2 carries a

statutory maximum sentence of ten years of imprisonment upon conviction. A maximum fine of

$250,000 applies to both counts. The indictment also seeks forfeiture of the proceeds of the

offenses from HOKE.

       The indictment alleges that, on September 24, 2009, HOKE knowingly executed a

scheme to obtain monies from First Niagara Bank, a financial institution whose deposits were

insured by the Federal Deposit Insurance Corporation, by means of false and fraudulent pretenses

and representations. According to the indictment, HOKE deposited a $10,190.73 United States

Treasury check payable to another person into her account at First Niagara Bank, in Troy, N.Y.,



       1
         The charge is merely an accusation and the defendant is presumed innocent until and unless
proven guilty.
representing that the person had endorsed the check and made it payable to HOKE. Four days

later, HOKE withdrew almost all of the proceeds of the check in two withdrawals, in the amount

of $6,000.00 and $4,000.00, respectively. The indictment further charges that HOKE, with

intent to defraud, falsely made and forged the endorsement and signature on the Treasury check

and passed and uttered the check.

       The charges are the result of an investigation conducted by the United States Social

Security Administration, Office of Inspector General, the United States Secret Service, and the

Office of the United States Attorney for the Northern District of New York.
